2311 Douglas Street
Omaha, Nebraska 68102-1214

TN
COCKLE sane

Legal Briefs :
e Paco contact@cocklelegalbriefs.com

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 20-297

TRANSUNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF ACA
INTERNATIONAL AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 2733 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 8th day of February, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Kense. 0). Llaoo? Onur bt bok

Affiant 40641

     
 

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
abeme wy Comm. Exp. September 5, 2028

 

Notary Public
